No. 20-443
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via first-class mail, postage prepaid, this 23rd
day of December, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2907 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on December 23, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0443
USA
DZHOKHAR A. TSARNAEV

CLIFFORD GARDNER
LAW OFFICES OF CLIFF GARDNER
1448 SAN PABLO AVE.
BERKELEY, CA 94702
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVE., NW
SUITE 500E
WASHINGTON, DC 20001-5369
202-220-1100
GINGER.ANDERS@MTO.COM
JUDY CLARKE
CLARKE, RICE APC
1010 2ND AVE.
SUITE 1800
SAN DIEGO, CA 92101
DANIEL HABIB
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
DANIEL_HABIB@FD.ORG
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM

GAIL K. JOHNSON
JOHNSON & KLEIN PLLC
1470 WALNUT STREET
STE. 101
BOULDER , CO 80302
303-444-1885
DAVID PATTON
DEIRDRE D. VON DORNUM
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
DEIRDRE VON DORNUM
FEDERAL DEFENDERS OFFICE
1 PIERREPONT PLAZA
16TH FLR.
BROOKLYN , NY 11201
718-330-1210
DEIRDRE_VONDORNUM@FD.ORG

